Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




      Client Cooperation With
     Child Support Enforcement

    The Role of Public Assistance Agencies




                       JUNE GIBBS BROWN
                        Inspector General

                           MARCH 2000
                          OEI-06-98-00042
                         OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the
health and welfare of beneficiaries served by them. This statutory mission is carried out through a
nationwide program of audits, investigations, inspections, sanctions, and fraud alerts. The
Inspector General informs the Secretary of program and management problems and recommends
legislative, regulatory, and operational approaches to correct them.

                            Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public. The
inspection reports provide findings and recommendations on the efficiency, vulnerability, and
effectiveness of departmental programs.

OEI's Region VI prepared this report under the direction of Chester B. Slaughter, Regional
Inspector General and Judith V. Tyler, Deputy Regional Inspector General.

Principal OEI staff included:

DALLAS                                          HEADQUARTERS

Blaine Collins
                                 Alan Levine, Program Specialist
Ruth Ann Dorrill
                               Joan Richardson, Program Specialist
Marnette Robertson
                             Linda Hall
Clark Thomas, Ph.D.

Nancy Watts

Lisa White


FIELD OFFICES

Lucille Cop
Vincent Greiber
Ianna Kachoris
Thomas Purvis
Graham Rawsthorn

         To obtain copies of this report, please call the Dallas Regional Office at 214-767-3310.
          Reports are also available on the World Wide Web at our home page address:

                                  http://www.dhhs.gov/progorg/oei
                    EXECUTIVE SUMMARY

PURPOSE

To describe the role of public assistance agencies and interagency collaboration in gaining
cooperation with child support enforcement from Temporary Assistance for Needy Families
(TANF) clients.

BACKGROUND

Federal law requires TANF clients to cooperate with State child support enforcement by
providing information about noncustodial parents and appearing for appointments as needed.
Public assistance agencies are often responsible for informing clients of these requirements,
eliciting information from clients about noncustodial parents, and transferring this information to
the child support agency. If notified by the State child support agency that a client is not
cooperating, the public assistance agency must reduce the family’s cash assistance by at least 25
percent and, at State discretion, may deny the family all cash assistance. Additionally, States may
choose to have their public assistance agency administer “good cause” and other exceptions that
may exempt clients from cooperating. This report examines the role of public assistance agencies
and interagency collaboration in gaining TANF client cooperation with child support enforcement
in six focus States which we chose in order to examine a variety of implementation strategies and
experiences regarding client cooperation. We surveyed staff and reviewed documents from 99
local child support and 103 local public assistance offices, and interviewed approximately 180
local office managers and caseworkers.

FINDINGS

AGENCY RESPONSIBILITIES

Public Assistance Staff Typically Interview New Applicants and Clients to Gather
Basic Information about Noncustodial Parents

Public assistance staff spend limited interview time gathering information about noncustodial
parents, with two-thirds of public assistance staff reporting spending 15 minutes or less on this
portion of TANF client interviews. Clients are asked to provide basic information such as an
absent parent’s date of birth, current address, current employer, and Social Security number.

Most Local Public Assistance Offices Quickly Transfer Information to Child
Support Agencies, Yet Many Child Support Staff Are Concerned About the
Accuracy and Completeness of Information

While child support agencies generally rate the timeliness of electronic information transfer from
public assistance offices as good, some complain they do not receive, or do not have access to, all


                                                  i
the useful information collected by public assistance staff. Public assistance staff often gather
enough critical information, such as the noncustodial parent’s Social Security number, for child
support to pursue enforcement. However, many child support respondents rate the usefulness,
accuracy, and completeness of information gathered by public assistance as only fair or poor.

Penalties for Noncooperation in Focus States Vary, But Many Child Support
Respondents Are Concerned That Penalties are Not Properly Imposed

In focus States, penalties for noncooperation range from the Federally-mandated 25 percent
reduction in the family’s cash grant to elimination of all cash assistance. All public assistance
respondents report notifying TANF clients about the nature and timing of impending penalties, as
well as their right to appeal an adverse action. Additionally, some local public assistance offices
attempt to reconcile with clients, and gain cooperation prior to imposing penalties. Many child
support respondents believe public assistance staff do not always follow through on imposing
penalties on noncooperative TANF clients.

AGENCY COLLABORATION

While Most Public Assistance and Child Support Staff Rate Their Relationship as
Effective, Many Raise Concerns About Close Collaboration

Most child support and public assistance staff believe their interagency relationship is effective,
yet many perceive that their overall agency goals are not aligned. Staff generally characterize the
public assistance agency as a service agency, whereas most view child support enforcement as an
arm of law enforcement. Some believe these cultural differences make collaboration more
difficult, while others see them as an advantage for gaining client cooperation.

Communication Between Child Support and Public Assistance Workers is Limited
and Sometimes Problematic, Especially Telephone Contact

Staff report little communication between workers of each agency and significant problems in
reaching their counterpart by telephone. Workers suggest that these communication barriers
complicate casework and potentially hinder client cooperation.

Staff in Both Agencies Receive Training About Gaining TANF Client Cooperation,
But Most Training is Conducted Separately

Most public assistance and child support respondents report formally training workers about State
cooperation requirements and collecting noncustodial parent information from clients. Cross-
training, however, is limited, with only one-third or less of all training involving representatives
from the other agency. Respondents involved in cross-training believe it improves staff
understanding of the needs of the other agency.




                                                 ii
Some Local Offices Use Co-location or Out-stationing of Child Support Staff in
Public Assistance Offices to Improve Agency Collaboration

A number of local office respondents report having child support and public assistance offices at
the same site (co-location). Others describe having child support staff work at public assistance
offices either full time or on a scheduled basis (out-stationing). Many credit these strategies with
improving communication between agencies.

RECOMMENDATIONS

Successful operation of the child support enforcement program requires effective, cooperative
action by both the Office of Child Support Enforcement and the Office of Family Assistance.
Therefore, we recommend that the Assistant Secretary for the Administration for Children and
Families (ACF) encourage States to complete the following.

Focus Public Assistance Information Gathering on Specific Facts about
Noncustodial Parents That Are Most Useful for Enforcement

Explore Ways to Enhance Public Assistance Staff Access to Information
Verification Tools, Potentially Easing the Information Collection Process

Continue to Improve Systems Which Allow the Exchange of Information Between
Public Assistance and Child Support Enforcement Agencies

Work with Local Public Assistance Offices to Insure That Penalties for
Noncooperation with Child Support Are Properly Imposed

Strengthen Interaction, Cross-Training, and Communication Between Their Public
Assistance and Child Support Enforcement Agencies

COMPANION REPORTS

        This is one of four OIG reports on how States gain TANF client cooperation with child
        support enforcement. One companion report, Client Cooperation with Child Support
        Enforcement: Policies and Practices (OEI-06-98-00040), provides an overview of
        cooperation polices and how they are implemented by States. Another report, Client
        Cooperation with Child Support Enforcement: Challenges and Strategies to Improvement
        (OEI-06-98-00041), examines why some clients do not cooperate and how States attempt
        to gain their cooperation. The remaining report, Client Cooperation with Child Support
        Enforcement: Use of Good Cause Exceptions (OEI-06-98-00043), describes how clients
        may be exempted from cooperation requirements under certain circumstances, especially
        when enforcement may put the child at risk of violence.




                                                  iii
                TABLE OF CONTENTS

                                                    PAGE


EXECUTIVE SUMMARY                                       i


INTRODUCTION                                           1


FINDINGS


     Agency Responsibilities


            Information Collection                     4


            Transfer of Information                    5


            Imposing Penalties for Noncooperation      7


     Interagency Collaboration                         9


RECOMMENDATIONS                                       13


ENDNOTES                                              15

                        INTRODUCTION

PURPOSE

   To describe the role of public assistance agencies and interagency collaboration in gaining
   cooperation with child support enforcement from Temporary Assistance for Needy
   Families (TANF) clients.

BACKGROUND

   Federal law has long required public assistance clients to cooperate with State child
   support enforcement authorities in establishing and enforcing child support and medical
   support orders, and in establishing paternity. As part of a broad effort to reform the
   nation’s welfare system, Congress made significant changes to Federal policy regarding
   client child support cooperation requirements in the Personal Responsibility and Work
   Opportunity Act of 1996. Currently, unless exempted from cooperation requirements
   through a good cause or other exception,1 TANF clients must name and provide
   information about the noncustodial parent of their children, and otherwise cooperate as
   determined by the State.2 Formerly, State public assistance agencies determined whether
   clients were cooperating with their State’s child support agency; however, welfare reform
   made State child support agencies responsible for determining if TANF clients are
   cooperating in “good faith” and notifying the public assistance agency of each client’s
   cooperation status. Before welfare reform, State public assistance agencies solely
   determined how to deal with clients who failed to cooperate. Now, if the child support
   agency determines a client has not cooperated, the TANF agency is required to reduce the
   family’s cash assistance by at least 25 percent and, at State discretion, may deny the family
   all cash assistance. If a State public assistance agency does not enforce the penalties
   requested by the child support agency, Federal law allows for the State to be penalized up
   to 5 percent of their TANF funds.3 All these changes were made in an attempt to improve
   client cooperation with child support enforcement. While families who receive Medicaid
   coverage, food stamps, or foster care services are also required to cooperate with child
   support enforcement efforts, this report focuses on cooperation issues involving clients of
   the TANF program.4

   State public assistance agencies play a major role in gaining TANF client cooperation, a
   critical first step of child support enforcement. Public assistance staff are often responsible
   for explaining State cooperation requirements to clients, gathering initial information
   about noncustodial parents, transferring this information to the child support agency, and
   imposing penalties on clients deemed noncooperative by the child support agency. Child
   support staff often use the information gathered by public assistance staff to locate a
   noncustodial parent or putative father, establish paternity, create a child support order,
   and/or enforce a prior obligation. Welfare reform increased the importance of
   collaboration between child support enforcement and public assistance agencies. With a


                                             1

   greater focus on moving families toward work and self-sufficiency, child support is seen as
   a potential source of income for many needy families. Therefore, public assistance agency
   support of child support enforcement efforts has become more important than in the past.
   This report describes the role of public assistance agencies in gaining TANF client
   cooperation with child support enforcement and examines interagency collaboration in six
   States. We also identify potential barriers to effective interaction and offer
   recommendations where appropriate.

SCOPE AND METHODOLOGY

   We used several sources of information to examine TANF client cooperation with child
   support enforcement. The primary source of information comes from self-administered
   written surveys which we mailed to local child support and public assistance offices.
   Managers and administrators from 99 local child support offices and 103 public assistance
   offices in six focus States - California, Georgia, Illinois, New Jersey, Texas and Virginia -
   returned these mail surveys regarding cooperation policies, practices, and improvement
   strategies. The quantitative data (percentage of responses) presented in this report come
   from responses to the questions in these surveys. We also gathered and reviewed agency
   documents from these same local offices, including client cooperation policy statements,
   standardized forms, examples of correspondence with clients and other agencies, outreach
   materials, and other related documents.

   We also made site visits to a subset of local offices, visiting offices in one or two cities and
   their surrounding areas in each of the six focus States. During these visits, we conducted
   interviews with approximately 180 local public assistance and child support managers and
   caseworkers. At almost all offices, we interviewed one or more managers, then separately
   interviewed two or more caseworkers. Resource constraints prevented us from directly
   interviewing clients. Finally, we conducted telephone interviews of administrators from
   each State’s child support enforcement and public assistance agency to confirm
   information regarding State policies.

   We purposively selected the six focus States to include a variety of implementation
   strategies and experiences regarding client cooperation. To achieve this variety, we
   considered many criteria including type of penalties for noncooperation, number of good
   cause claims, number of good cause exceptions granted, outstanding program
   characteristics (innovations, privatization, etc.), status as State-administered or county-
   administered, and geographic region. We also purposively selected local child support and
   public assistance offices within these States to provide a mix of urban, suburban, mid-size,
   and rural locations. The selection of focus States does not purport to be representative of
   the nation, nor do local offices represent all offices within individual focus States. The
   selections do, however, allow for examination of client cooperation processes under
   conditions found throughout the country.

   This report relies on the perceptions of local office survey respondents and interviewees.
   These respondents provided detailed information about how cooperation policies are


                                              2

   implemented, as well as the effect of cooperation requirements on office operations, staff,
   and clients. We did not attempt to independently verify the information provided by staff.
   However, the information included in the report does relate the experience of front line
   staff who deliver services to clients on a daily basis, and who demonstrate considerable
   concern for the effectiveness of their programs.

   This study was conducted in accordance with the Quality Standards for Inspections issued
   by the President’s Council on Integrity and Efficiency.

COMPANION REPORTS

       This is one of four OIG reports on how States gain TANF client cooperation with child
       support enforcement. One companion report, Client Cooperation with Child Support
       Enforcement: Policies and Practices (OEI-06-98-00040), provides an overview of
       cooperation polices and how they are implemented by States. Another report, Client
       Cooperation with Child Support Enforcement: Challenges and Strategies to Improvement
       (OEI-06-98-00041), examines why some clients do not cooperate and how States attempt
       to gain their cooperation. The remaining report, Client Cooperation with Child Support
       Enforcement: Use of Good Cause Exceptions (OEI-06-98-00043), describes how clients
       may be exempted from cooperation requirements under certain circumstances, especially
       when enforcement may put the child at risk of violence.




                                              3

                                   FINDINGS

AGENCY RESPONSIBILITIES

      In addition to explaining the requirements and benefits of cooperating with child support
      enforcement, public assistance agencies have four specific responsibilities that affect
      TANF client cooperation: collecting information about noncustodial parents from
      applicants and clients; transferring information to the child support agency; imposing
      penalties when the child support agency determines a client is not cooperating; and, at
      State discretion, administering good cause and other exceptions that may exempt clients
      from cooperating with child support enforcement. This section examines the first three of
      these responsibilities, while good cause exceptions are discussed in a companion report.5

INFORMATION COLLECTION

      Typically, the first opportunity TANF clients have to cooperate with child support
      enforcement occurs when they apply for assistance. During application interviews, clients
      are asked to provide information about noncustodial parents or putative fathers. This
      interview is usually conducted by public assistance staff, although child support staff may
      be out-stationed or co-located in some local public assistance offices and conduct the child
      support portion of the interview.6 No matter who conducts this portion of the application
      interview, the information is generally entered into some form of automated system and
      transferred to the child support agency.

Public Assistance Staff Spend Limited Interview Time Gathering Noncustodial
Parent Information, Often Focusing on Basic Information Only

      For public assistance staff conducting new application or re-determination interviews,
      gathering information about noncustodial parents is a small part of a typically lengthy
      process. Sixty percent of public assistance respondents estimate that initial client
      interviews with caseworkers last over half an hour, and another 30 percent indicate these
      interviews are between one and two hours in length. During this time, staff must
      determine deprivation, complete numerous documents, and explain program rules for cash
      assistance and, sometimes, medical coverage and food stamps. Caseworkers explain that
      with all of these demands and limited staff time, the child support portion of the interview
      becomes just one of a series of tasks which they necessarily move through as rapidly as
      possible.

      About two-thirds of public assistance staff report the child support portion of TANF client
      interviews lasts 15 minutes or less. In addition to gathering information during this time,
      interviewers must also explain State cooperation requirements, policies regarding claiming
      good cause or other exceptions, and policies requiring that clients assign to the State any
      child support paid by the noncustodial parent. Clients are typically asked to sign a form
      indicating that they understand all of these policies, agree to cooperate with child support


                                               4

     enforcement, and do not wish to claim an exception. The result of all of these demands is
     that public assistance staff report spending very little time on actually gathering
     information needed for child support enforcement.

     The noncustodial parent portion of the interview often involves obtaining very basic
     answers to specific questions appearing on a printed form or a computer screen and then
     moving to the next topic. Typically, clients are asked to provide information such as a
     noncustodial parent’s date of birth, Social Security number, current address, and current
     employer. Staff report there is often little time to ask probing questions beyond the
     minimum required to fill in the intake form and workers often feel pressure to move on to
     the next interview. As one worker explained, “We would sometimes like to be able to
     spend more time talking about the absent parent and getting better information, but you
     just have to clear the screen and move on sometimes. There’s not time for a lot of finesse
     in getting more information.”

TRANSFER OF INFORMATION

     Public assistance staff we surveyed report their offices transfer case information to local
     child support offices by several means. Ninety-six percent say they provide access to
     electronic databases and 9 percent say they use electronic mail to send information.
     Additionally, 74 percent send paper forms and records. Most child support workers (91
     percent) agree that they have electronic access to the data collected and maintained by the
     public assistance agency.

Although Timeliness of Transferring Basic Information to the Child Support
Agency is Rated as Good, Limited Access to Complete Data Hinders Information
Sharing

     Seventy percent of child support respondents rate the timeliness of information transfer as
     good or excellent, with the remaining 30 percent ranking timeliness as only fair or poor.
     Many administrators and staff in both agencies attribute this mostly positive rating to
     technology that allows immediate electronic transfer of case information, daily electronic
     batch transfers, or weekly or monthly data tape matches between agencies.

     However, while many offices receive and transfer information in electronic form, some
     workers suggest that electronic systems, as they currently exist, pose a challenge to
     making the most useful information collected by public assistance staff available to child
     support staff. Apparently, public assistance workers enter potentially useful information
     into database fields that child support staff are not allowed to access in some systems.
     Additionally, few State or local computer systems allow workers from one agency to
     search for data within the other’s files. As a result, a child support worker might be able
     to see a portion of a client’s public assistance interview that contains answers to questions
     directly associated with child support, but be unable to access additional information that
     might be useful in locating an absent parent, or in establishing or enforcing a child support
     order. Many child support staff report they could be more efficient with greater access to
     public assistance databases. As one child support worker argues, “If we could get on-line


                                               5

      with the full database, we wouldn’t have to get all this again from the mom. They have
      the information, we just can’t get to it in their system. I’d like to read their comments.
      We are dealing with people and we would like to have a sense of who we are dealing with
      ... and what their circumstances are.”

      Virtually all local and State administrators report ongoing efforts to improve electronic
      interface capabilities between agencies, and many are excited about the potential benefits.
      One child support administrator, whose office is piloting a system intended to directly link
      public assistance and child support data says, “The system handles a tremendous amount
      of information .... Whatever [public assistance] puts into their system, it will carry over
      into our system. [With this] one-step interview, the error rate is lower and lag [time
      between] when you enter information and when it is available for other users is greatly
      reduced. We are very excited.”

Information Gathered by Public Assistance Staff is Often Sufficient for Child
Support Enforcement

      Public assistance staff often gather enough information from TANF clients for child
      support workers to pursue paternity establishment, create a child support order, or enforce
      support. One public assistance worker describes the information some clients provide,
      “Some cooperate a ton. They want the benefits for their children. Also, they understand
      that the child needs support. They give Social Security number and workplace.” When
      critical information, especially a Social Security number or place of current employment, is
      provided to public assistance workers, child support staff indicate they may never need to
      see a client to collect additional information. A child support worker explains, “We find
      that typically we do not have to have an interview. Public assistance may collect enough
      information about the absent parent and get all the necessary forms signed, so that we do
      not need to see the client.”

However, Many Child Support Staff Rate the Overall Usefulness, Accuracy and
Completeness of Information Collected by Public Assistance as Only Fair or Poor

      Although the information public assistance staff collect is often sufficient to pursue
      support, it does not always contain everything that child support workers would like to
      have to create and enforce a support order. While child support staff usually use the
      information provided from public assistance interviews, some report they often must spend
      considerable time checking for accuracy and acquiring additional information through
      follow-up interviews with the client, or from databases and other investigation. Forty-five
      percent of child support respondents rate the usefulness of information they receive as
      good and eight percent report the information they receive is excellent, but the remaining
      47 percent of child support respondents rate the usefulness of information as only fair or
      poor. Additionally, 70 percent of child support respondents rate the accuracy and
      completeness of this information as only fair or poor.

      Staff identify several potential explanations for why the information child support offices
      receive from the public assistance agency may be less than optimal for their purposes.


                                                6

     First, as noted above, public assistance staff may not be able to devote enough interview
     time to gather all the information clients have about noncustodial parents. Second,
     because public assistance staff typically do not use noncustodial parent information for
     their own purposes, they may not understand which information is most useful to child
     support workers. As a child support caseworker explains, “I don’t believe [public
     assistance] workers fully understand our child support [needs] and so cannot obtain the
     kind of noncustodial information we require.” Third, public assistance staff may have
     little incentive to be concerned about gathering complete and accurate information. We
     found that few local public assistance administrators consider the child support interview
     as a “performance indicator” for front line workers. As one child support administrator
     expresses, “There are no requirements or incentives for public assistance staff to provide
     child support with information. There is no monitoring.” The result of this lack of
     incentive is that some public assistance workers may feel it is not their job to obtain
     information about noncustodial parents and may bypass questions on their automated
     intake forms. As one public assistance worker explains, “A lot of times workers are just
     going into those fields that you have to clear and putting ‘unknown’ and that just clears
     the field ... and they go on.” Fourth, many public assistance offices in focus States do not
     have access to electronic tools, such as State motor vehicle or employment databases, to
     immediately verify the information that clients provide. On the other hand, child support
     staff typically do have access to these tools and believe that clients are more likely to
     provide accurate information when they understand that workers can immediately verify
     what they are told. Finally, in a companion report, we detail that some TANF clients have
     personal and financial disincentives to providing complete and accurate information about
     noncustodial parents, or to otherwise cooperating with child support enforcement.7

IMPOSING PENALTIES FOR NONCOOPERATION

Public Assistance Agencies Are Responsible for Imposing Penalties on TANF
Clients for Noncooperation and Must Notify Clients of Impending Adverse
Actions and Their Right to Appeal

     Procedurally, when child support staff determine that a TANF client is not cooperating,
     the caseworker notifies the public assistance agency by mail, telephone, FAX, e-mail, or
     by placing a code in the electronic case file of a shared database. It is then the
     responsibility of the local public assistance office to impose the appropriate penalties.
     Penalties for noncooperation in focus States range from the Federally-mandated 25
     percent reduction in the family’s cash assistance to a full-family sanction, often resulting in
     closure of the TANF case. Respondents from every local public assistance office we
     surveyed report that they notify clients by mail, phone, or in person regarding what
     penalties will be imposed, when they will take effect, and the client’s right to appeal the
     adverse action. This notice often serves as the client’s last opportunity to avoid penalties
     for noncooperation.

     One State has formalized this notification process such that public assistance staff schedule
     a noncooperative client for a “reconciliation meeting.” During this meeting, the



                                                7

      client is informed of the impending penalties and asked to explain why they failed to
      cooperate originally. If public assistance staff determine that the client had a valid reason
      for missing a meeting or otherwise failing to cooperate, the client is asked to indicate they
      will cooperate in the future by signing a “reconciliation agreement”. Clients must then
      appear for a re-scheduled activity or provide requested information to avoid penalties.
      While the reconciliation meeting effectively insures that clients have ample opportunity to
      avoid penalties, some child support staff criticize the process as redundant, because clients
      must agree to cooperate with child support when they initially apply for benefits.8

The Majority of Child Support Workers Believe Public Assistance Staff Do Not
Adequately Enforce Penalties on Noncooperative TANF Clients

      While child support workers must determine whether TANF clients are cooperating, only
      the public assistance agency may impose penalties on clients. Staff from the two agencies
      disagree regarding how strictly and swiftly penalties are imposed on clients. Sixty-three
      percent of child support respondents identify the lack of enforcement of penalties as a
      barrier to clients providing complete and accurate information about noncustodial parents.
      In contrast, only 10 percent of public assistance respondents identify this as a barrier.
      Child support respondents often express doubt that penalties are being imposed. Two
      child support workers describe their experience, “[Public assistance] won't sanction
      them. Very, very rarely do we get that done. We just notify them through the computer
      system, then I don't know what happens.” And, “We are having a problem with [public
      assistance] not sanctioning someone, where we had recommended it. We think it is
      because the social workers are overloaded, that it takes them too long to implement the
      sanction. When that happens, it leaves us impotent for a while.”

      Some child support workers express frustration that the public assistance agency takes
      weeks or months to impose penalties, thereby delaying enforcement efforts. As stated by
      a child support caseworker, “[Public assistance] sanctions don't work because they have
      100 days to appeal and the bite just isn't immediate enough. There is then little initiative
      to cooperate.” One State has an automatic appeal of a noncooperation determination in
      which TANF clients who attend a ‘reconciliation’ meeting with their public assistance
      caseworker, and agree to cooperate in the future, can avoid being penalized. In another
      State, prior to imposing penalties, public assistance caseworkers are required to reassess
      all TANF clients who are designated as noncooperative to determine whether they meet
      qualifications for good cause exceptions through which they may be exempted from
      cooperating. While these procedures provide safeguards against inappropriately
      penalizing clients, they also serve to delay penalties, possibly making clients doubt that
      penalties will ever be imposed. A caseworker explains, “Sometimes, a year will go by,
      and a sanction we have recommended has not been imposed, so there is no incentive for
      that client to change their behavior. They learn they can “blow us off” and nothing
      happens, and word of mouth gets this knowledge to others.”

      Within focus States, local public assistance offices appear to develop individual norms
      regarding how quickly they impose penalties for noncooperation with child support
      enforcement. For example, we frequently heard that staff in urban offices may act


                                                8

      differently than those in rural communities. As one child support worker notes, “We code
      them as noncooperative and then [public assistance] calls them or sanctions them.
      Smaller counties seem to sanction right away. The larger ones tend to call. Then they
      notify us that they need another appointment. Larger counties sanction more slowly. They
      are giving them an extra chance.”

INTERAGENCY COLLABORATION

While Most Public Assistance and Child Support Staff Rate Their Relationship as
Effective, Many Raise Concerns About Close Collaboration

      Eighty-four percent of child support and 72 percent of public assistance respondents rate
      their relationship with their counterpart as effective or very effective. Some staff report
      they are making efforts to work together across agencies to solve common problems and
      reach common goals. These efforts range from formal liaison officers responsible for
      initiating contact between agency offices to less formal managers’ meetings or occasional
      staff gatherings. Workers in several offices where some effort at staff or management
      interaction is underway report that, while misunderstanding or mis-communication
      between offices does occur, their overall relationship, and therefore the quality of work, is
      improving. As one child support administrator relates, “We are now working closely
      together on several projects. Our goals are becoming more common and closely
      related.” Similarly, a public assistance administrator says, “We are working together to
      achieve a positive goal. We now hold regular meetings together. There is good
      communication between agencies. Everyone is trying to be a part of getting clients off
      TANF and into the workforce.”

      Despite these generally positive perceptions of interagency relationships, several
      respondents from each agency express frustration or concern about working with their
      counterparts. Staff from both agencies claim the other agency does not understand their
      agency’s work. Child support staff, for example, point out that front line public assistance
      workers have many different responsibilities, of which child support is only one, and
      question the ability of public assistance staff to make gathering noncustodial parent
      information a priority.

      Even with welfare reform increasing the importance of child support enforcement for
      many TANF clients, staff still perceive the mission of each agency quite differently. While
      staff of both agencies mostly view public assistance as a service agency designed to assist
      clients to gain employment and attain independence, they mostly see the child support
      agency as a law enforcement agency concerned primarily with collections. As one public
      assistance administrator expresses, “Our mission is basically a kind of helping, giving
      sort of mission. I think child support’s is ... basically a police kind of vision .... We are
      counselors, social workers. We help people with their lives, their situations ... but child
      support is totally different.” This perception of different missions appears particularly
      prominent among staff in States where the child support agency is part of the State judicial




                                                9

      system and not as common where both agencies are housed within the State’s social
      service department.

      Others respondents suggest that the difference in cultures offers an advantage to having
      public assistance workers collect child support information. A child support worker
      explains, “The clients tend to trust the welfare staff more than they trust us. They are
      giving them money, [clients believe] we are giving them a hassle. So, somebody with that
      trust can ask questions about the father. They are with them physically and are in a
      much better place to get information about the case. By the time we get the case, they
      have been through the system and don’t want to have anything to do with another
      government agency.”

Communication Between Child Support Workers and Public Assistance Workers
is Limited and Sometimes Problematic, Especially Telephone Contact

      While many offices of both agencies transfer specific case information electronically or
      through paper forms, less formal discussion among workers does not appear to occur
      often. Many public assistance workers express difficulty in contacting child support
      workers about a client’s case once the initial application process is complete. Child
      support workers also note problems with reaching public assistance workers to obtain
      additional information or to provide information about a client’s cooperation status.

      Many of these communication problems are technical or logistical, such as poor telephone
      access. Staff complain of unanswered telephones and unreturned calls from workers and
      managers of both agencies. In some cases, caseworkers are assigned to answer phones
      and direct calls at the same time they are expected to conduct client interviews. In other
      cases, workers suggest that telephone lines are always busy with client inquiries and that
      they are not furnished with private or unpublished numbers through which they could
      reach their counterparts.

      Staff report that clients may suffer because of the inability of caseworkers to communicate
      in a timely manner. For example, TANF clients who have received noncooperation
      notices often return to their local public assistance office to resolve the situation. If they
      are able to explain a valid reason for a missed appointment or provide additional
      information, they may avoid being penalized for noncooperation. Delays in
      communication between agencies can make this more difficult. As one public assistance
      worker explains, “[Child support workers] are not easy to get [on the phone.] When
      [clients] get sanctioned, we can’t give out the back phone number so that clients can
      comply by setting appointments or giving information over the phone. It is hard to get
      through. Phones are always busy. Its brutal to try to call [child support workers.]”

Staff in Both Agencies Receive Training About Gaining TANF Client Cooperation,
But Most Training is Conducted Separately

      Seventy-five percent of public assistance respondents report their workers receive formal
      training about collecting information from clients for child support enforcement. Most of


                                               10

      these respondents, 61 percent, indicate training involves only administrators, while the
      remainder report that all staff receive training. Likewise, 85 percent of child support
      respondents report that their staff receive training on client cooperation requirements. In
      those offices where training does take place, it is most often conducted internally by the
      respondents’ own agency. Seventy-nine percent of public assistance and 80 percent of
      child support respondents report that an administrator or staff member of their own
      agency usually provides training.

      In an effort to improve understanding about each other’s objectives, cross-training does
      take place in some offices. Almost a third (32 percent) of public assistance respondents
      and 22 percent of child support respondents report that a representative of the other
      agency participates as a provider of at least a portion of their training. Also, 24 percent of
      public assistance respondents report that child support workers attend training with them,
      while 23 percent of child support respondents include public assistance workers in their
      training.

      Administrators and workers report that cross-training helps both agencies achieve their
      goals. For example, a child support administrator relates, “At community meetings I
      discovered that when I explained child support responsibilities, many public assistance
      staff members did not know the importance of coding. They did not realize how
      important it was for interface with child support. In their training, there is not much talk
      about child support except that any client that has children, excepting good cause, must
      cooperate with child support. Just a few of the offices represented at this community
      meeting were aware of that. I have been advocating for nine years for interagency
      training.”

      Public assistance staff report benefits with receiving training from the child support
      agency. As one worker describes, “They were here in the office a couple weeks ago.
      They covered paternity issues like how to complete the form on absent parent
      information. They want us to provide as much information as we can so the client doesn't
      have to repeat it at a child support interview.” Other respondents report that training
      about child support information requirements has helped them understand why certain
      information is important and how much child support workers depend upon complete and
      accurate information from the custodial parent. Child support workers also say that cross-
      training has helped them better understand the demands and problems public assistance
      workers face in handling their caseloads.

Staff Report Co-location and Out-stationing of Child Support Staff Can Promote
Improved Interagency Communication

      A number of respondents report having child support and public assistance offices in the
      same place, commonly called co-location. Other respondents report that child support
      staff work at their public assistance offices either full-time or on a scheduled basis, often
      called out-stationing. Many credit these arrangements with improving communication
      between agencies. One public assistance administrator reports, “The co-location of staff
      helps build the relationship between offices. It helps clients and staff from both agencies


                                               11

communicate more effectively and builds understanding between the agencies.” A public
assistance worker says, “The co-located person makes a lot of difference to
communication. It is really easier than it was before to get information you need.”
Another public assistance worker emphasizes the benefit of having a child support worker
located in their office, “We often have to ask workers specific questions on cases we are
working. [Having the child support] worker in this office has been very nice, and very
helpful to us. When I have a question, she is great.”

Child support staff also see value in co-location, as one respondent explains, “When
clients are here, they can also see me. Having a child support worker here is a “one-stop
shopping” kind of thing. They can get information on a case. I also maintain a close
relationship with the benefit workers here. It is a quicker access to the information we
need. I can just knock on a door, without telephone calls or a paper trail. It helps the
coordination of the two agencies in many ways and makes things a lot simpler for
communication.”




                                       12

                    RECOMMENDATIONS

      Successful operation of the child support enforcement program requires effective,
      cooperative action by both the Office of Child Support Enforcement and the Office of
      Family Assistance. Therefore, we recommend that the Assistant Secretary for the
      Administration for Children and Families (ACF) encourage States to:

Focus Public Assistance Information Gathering on Specific Facts About
Noncustodial Parents That Are Most Useful for Enforcement

      When public assistance staff obtain critical information about noncustodial parents, such as
      Social Security number and current employer, child support enforcement is often
      accelerated. Although child support staff may find additional information, such as address
      or schools attended, useful in locating absent parents, public assistance staff may be less
      successful in obtaining the most critical information when they are asked to collect more
      than is realistic. ACF should encourage States to clarify and prioritize the child support
      information they most want from these necessarily brief public assistance interviews and to
      provide staff guidance on how best to elicit priority information.

Explore Ways to Enhance Public Assistance Staff Access to Information
Verification Tools, Potentially Easing the Information Collection Process

      Staff of both agencies report that access to information verification tools, such as driver’s
      license and State employment databases, enhances their ability to obtain complete and
      accurate information from clients. While most child support workers appear to use such
      tools, many public assistance workers lack access, yet could benefit from it. The ability to
      quickly verify information provided by clients could make information collection easier
      and the use of limited interview time more efficient.

Continue to Improve Systems Which Allow the Exchange of Information Between
Public Assistance and Child Support Enforcement Agencies

      Child support staff often rely on information about noncustodial parents which clients
      provide during interviews with public assistance workers. Expanding child support access
      to client information, while insuring client confidentiality, can allow child support workers
      to begin locate and enforcement efforts earlier. ACF should encourage States to utilize
      strategies which enhance the exchange and use of information among agencies.

Work with Local Public Assistance Offices to Insure That Penalties for
Noncooperation with Child Support Are Properly Imposed

      Staff report that most TANF clients who are penalized for noncooperation with child
      support enforcement eventually cooperate. However, when threatened penalties are
      delayed or never imposed, clients may begin to believe that cooperation is unimportant


                                               13

      and that noncooperation has no negative consequences. ACF should encourage States to
      insure that public assistance agencies properly impose penalties on noncooperative TANF
      clients consistently and timely, while protecting due process safeguards.

Strengthen Interaction, Cross-Training, and Communication Between Their Public
Assistance and Child Support Enforcement Agencies

      Interagency meetings, cross-training and regular communication at the management and
      staff level can help identify barriers to collaboration, develop joint objectives among child
      support and public assistance agencies, provide staff with opportunities to develop
      contacts for information exchange or help with particular clients. ACF should encourage
      State agencies to engage in more interaction at all levels, and provide the means, such as
      dedicated telephone lines, by which staff can routinely communicate with their
      counterparts.

      ACF did not provide comments in response to our draft report and recommendations.




                                                14

                                 ENDNOTES

1.	   See our companion report, Client Cooperation With Child Support Enforcement: Use of
      Good Cause Exceptions, OEI-06-98-00043, 2000.

2.    Social Security Act, Title IV, Part A., Sec. 408 (2).

3.    Social Security Act, Title IV, Part A., Sec. 409 (5).

4.	   For information regarding gaining client cooperation with child support enforcement from
      individuals receiving Medicaid, but not TANF, see our report, Client Cooperation with
      Child Support Enforcement: Medicaid-Only Clients, OEI-06-98-00045, 2000.

5.    Ibid, OEI 06-98-00043, 2000.

6.	   For more information on interviews conducted by child support staff, see our companion
      report, Client Cooperation With Child Support Enforcement: Policies and Practices, OEI
      06-98-00040, 2000.

7.	   See our companion report, Client Cooperation With Child Support Enforcement:
      Challenges and Strategies to Improvement, OEI 06-98-00041, 2000.

8.    Ibid, OEI 06-98-00041, 2000.




                                               15

